Department of Health and Human Services 

                 OFFICE OF 

            INSPECTOR GENERAL 





                     Daniel R. Levinson
                      Inspector General
       L"

                         MAY 2007
                       A-05-07-00049
                    Office of Inspector General
                                     http://oig.hhs.gov 




The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 0 1 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIGYsinternal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices 


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http:lloig.hhs.gov

In accordance with the principles of the Freedom of Information Act
(5 U.S.C. 552, as amended by Public Law 104-231), Office of Inspector
General, Office of Audit Services reports are made available to
members of the public to the extent the information is not subject to
exemptions in the act. (See 45 CFR Part 5.)

               OAS FINDINGS AND OPINIONS

The designation of financial or management practices as questionable
or a recommendation for the disallowance of costs incurred or claimed,
as well as other conclusions and recommendations in this report,
represent the findings and opinions of the HHS/OIG/OAS. Authorized
officials of the HHS divisions will make final determination on these
matters.
                    DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                     OFFICE OF AUDIT SERVICES
                                                                                                REGION V
                                    233 NORTH MICHIGAN AVENUE                                   OFFICE O F
                                      CHICAGO, ILLINOIS 60601                              INSPECTOR GENERAL

                                            May 15,2007


Report Number: A-05-07-00049

Mr. Kenneth Fisher
Interim Associate Vice President for Medical Affairs and CFO
University of Iowa Hospitals & Clinics
El 39 General Hospital
200 Hawkins Drive
Iowa City, Iowa 52242

Dear Mr. Fisher:

This final report provides the results of our audit of a vendor rebate in the amount of $77,014
that a drug manufacturer paid to University of Iowa Hospitals & Clinics of Iowa City, Iowa. We
identified this rebate through a national statistical sample of rebates.

BACKGROUND

University of Iowa Hospitals & Clinics

University of Iowa Hospitals & Clinics (the provider) is a 760-plus bed, university-owned
hospital and an academic medical center that provides health care, medical research, and training
for health care professionals.

Vendor Rebates

A vendor rebate is a retroactive discount, allowance, or refund given to a health care provider
after the full list price has been paid for a product or a service. Rebates are usually paid quarterly
or annually and are usually dependent on achieving a specific purchasing volume. A rebate is
paid directly to a provider (e.g., a hospital) or to a nonprovider (eig., a group purchasing
organization or distributor).

Federal regulations (42 CFR tj 413.98) state that rebates are reductions in the cost of goods or
services purchased and are not income. The Centers for Medicare & Medicaid Services (CMS)
 Prnvider P.simbwsemest P~!~::21'' (part 1, chiipter 8) reqiiircs hospitals and other heaith care
(6



providers to report all discounts on their Medicare cost reports.

Medicare Cost Reports

Some types of Medicare-certified providers, such as hospitals, skilled nursing facilities, and
home health agencies, must submit an annual Medicare cost report to a fiscal intermediary. The
cost report contains provider information, including facility characteristics, utilization data, costs
Page 2 – Mr. Kenneth Fisher


and charges by cost center (in total and for Medicare), Medicare settlement data, and financial
statement data. A cost center is generally an organizational unit having a common functional
purpose for which direct and indirect costs are accumulated, allocated, and apportioned.
Providers must reduce previously reported Medicare costs when they receive rebates.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the provider reduced costs reported on its 2004
Medicare cost report by the $77,014 vendor rebate it received.

Scope

As part of a national statistical sample of rebates that a single drug vendor sent directly to
providers, we selected a $77,014 rebate that the provider received during calendar year 2003.
We limited our review to identifying the rebate amount and determining whether the provider
credited the amount in its accounting records and on its Medicare cost report. We did not
perform a detailed review of the provider’s internal controls.

We performed our fieldwork from October through November 2005 at the drug vendor’s offices
in Deerfield, Illinois. We requested and received information from the provider through phone
contacts, mail, and electronic mail.

Methodology

To accomplish our objective, we:
    •   reviewed Federal regulations and CMS guidance related to rebates,
    •   obtained a statistical sample of rebates paid by the vendor to identify providers that
        received the rebates,
    •   requested documentation from the provider regarding the reporting of the rebate,
    •   determined whether the provider credited the sampled rebate amount on its Medicare
        cost report,
    •   quantified the dollar amount of any rebates not reported and used to reduce previously
        reported costs, and
    •   contacted the provider’s fiscal intermediary to verify the accounting for the vendor
        rebate.

We conducted our audit in accordance with generally accepted government auditing standards.
Page 3 – Mr. Kenneth Fisher


FINDING AND RECOMMENDATIONS

For the $77,014 rebate reviewed, the provider did not reduce costs reported on its fiscal year
2004 Medicare cost report by $70,056, contrary to Federal regulations and CMS guidance. The
provider used $76,293 of the $77,014 rebate for the purchase of new equipment. The provider
then amortized a portion ($6,237) of the $76,293 as depreciation expense on its 2004 Medicare
cost report and deferred the remaining portion ($70,056) for future cost reporting periods. The
provider stated that it did not properly account for the credit memorandum in accordance with
Medicare policy and that it has notified its compliance office and fiscal intermediary of this
issue. Providers must offset costs by rebates to ensure that they report the actual cost of services
provided.

We recommend that the provider:

    •   revise and resubmit its 2004 Medicare cost report, if not already settled, to properly
        reflect the $70,056 rebate as a credit reducing its health care costs; and

    •   consider performing a self-assessment of its internal controls to ensure that future vendor
        rebates are properly credited on its Medicare cost reports.

PROVIDER COMMENTS

In its comments on the draft report, the provider agreed with our recommendations. The
provider stated that it (1) notified its fiscal intermediary who made an audit entry to correct the
issue on the 2004 Medicare cost report and (2) conducted an audit to identify any material
deposits or credit memos that were not recorded correctly. The provider’s written comments are
included as the Appendix.

                                                *****

A copy of this report will be forwarded to the action official noted on the next page for review
and any action deemed necessary. The HHS action official will make final determination as to
actions taken on all matters reported. We request that you respond to the HHS action official
within 30 days. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

In accordance with the principles of the Freedom of Information Act, 5 U.S.C. § 552, as
amended by Public Law 104-231, Office of Inspector General reports are made available to the
public to the extent the information is not subject to exemptions in the Act that the Department
chooses to exercise (see 45 CFR part 5).
Page 4 - Mr. Kenneth Fisher

If you have any questions or comments about this report, please contact Jaime Saucedo at (3 12)
353-8693. Please refer to report number A-05-07-00049.

                                            Sincerely,


                                           (*7"-    6
                                           Marc Gu tafson
                                                                             

                                            Regional Inspector General
                                             for Audit Services


Direct Reply to HHS Action Official:

Mr. Tom Lenz
Regional Administrator
Centers for Medicare & Medicaid Services
601 E.      Room 235
Kansas City, Missouri 64 106
APPENDIX
APPENDIX
 Page 1 of 3
APPENDIX
 Page 2 of 3
APPENDIX
 Page 3 of 3
